Attorneys for Petitioners
James Gideon Abernathy
Counsel of Record

c/o Freedom Foundation
PO Box 552
Olympia, WA 98507

360-956-3482

JamesGAbernathy@gmail.com
Party name: Melissa Belgau, et al.
Attorneys for Respondents
Scott A. Kronland
Counsel of Record

Altshuler Berzon, LLP
177 Post Street
Suite 300
San Francisco, CA 94108

415-421-7151

skronland@altshulerberzon.com
Party name: Washington Federation of State Employees, AFSCME Council 28
Alicia Orlena Young
Counsel of Record

Washington Office of the Attorney General
1125 Washington Street SE
PO Box 40100
Olympia, WA 98504-0100
alicia.young@atg.wa.gov

Party name: Jay Inslee, et al. (does not include WFSE)

360-586-2697

